No. ____________________
IN THE
SUPREME COURT OF THE UNITED STATES

FIVEA SHARIPOFF,
PETITIONER-APPELLEE,
v.
ROB PERSSON,
RESPONDENT-APPELLANT.
MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS

The petitioner, Fivea Sharipoff, requests leave to file the attached petition for
writ of certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39.1 of this
Court and 18 U.S.C. ยง 3006A(d)(7). The petitioner was represented by counsel
appointed under the Criminal Justice Act in the District of Oregon and on appeal in
the Ninth Circuit Court of Appeals, and therefore no affidavit is required.
RESPECTFULLY SUBMITTED this 3rd day of March, 2021.
s/ Nell Brown
Nell Brown
Attorney for Petitioner

